5227
2
IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S
FiLED

Sergio Bahena-Petitioner;

JUL I 9 2021

V.

OFFICE OF THE Cl PPk-

The People of the
State of Illinois-Respondent;

"On Petition for a Writ of Certiorari to
The Illinois Appellate Court for the
First Judicial District"

"Petition for Writ of Certiorari"

Sergio Bahena
Doc# Y-26870
Lawrence Correctional Center
10930 Lawrence Road
Sumner Illinois, 62466
Petitioner/Pro se

RECEIVED
JUL 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS PRESENTED

1. Did the Appellate Court of Illinois violate Petitioners Fourth
Amendment to the U.S. Constitution, by denying his petition
: due to the differentiation within the First District concerning
the constitutionality of Investigative Alerts.
2. Did the use of Investigative Alert bt Chicago Police Department
hold the grounds to be serve as as arrest warrant of the Petiti: voner at. his "home.

(1)

LIST OF PARTIES

1 • j) All parties appear in the caption of the case on the cover
page.

(2)

TABLE OF CONTENTS
Questions Presented............
List of Parties..........
Table of Contents........
Index to Appendices........
Table of Authorities........
Opinions Below........
Jurisdiction........
Constitutional Provisions and Statutes
Statement of the Case........
Reasons For Granting The Writ........
Conclusion........

pgi
Pg2
Pg3
Pg3
Pg4
Pg5
Pg6
Pg7
Pg8,9,10,11
Pgl2,13,14,15
pgl6

INDEX TO APPENDICES

Appendix A- Decision of State Court Of Appeal
Appendix B- Decision of State Supreme Court Denying Review
Appendix C- Chicago Police Department, Special Order 504-16,
Investigative Alerts System

(3)

TABLE OF AUTHORITIES CITED

Illinois Constitution Article I, Section 6; pgl2,13J,14
People v. Bass

2019 Ill. App(Ist)160640; pgl2,14

People v. Bass, 2021 Ill. 125434; pgl2,13
People v. Braswell, 2019 Ill. App(lst)172810; pgl2,13,14
People v. Hyland, 2012 Ill. App(lst)110966, 981 N.E.2d 414
Ill. Dec. 89. pgl2
Peyton v. New York
(1980); pgl3,14

445 U.S. 573

367

100 S.Ct. 1371, 63 L.Ed.2d 639

Silverman v. United States, 365, U.S. 505, 511, 81 S.Ct. 678, 683
5 L.Ed.2d 734; pgl4
United States Constitutional Amendment IV; pgl3,14
United States v. Santana, 427 U.S. 38, 96 S.Ct. 2406, 49 L.Ed.2d
300(1976); pgl3

(4)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

The Petitioner respectfully prays that this Honorable Court issue
a writ of certiorari to review the judgement below.
OPINION BELOW
The opinion of the highest state court to review the merits appears
at Appendix "B" to the petition and is unpublished.

The opinion the the Appellate Court appears at Appendix "A” to the
petition and is reported at W.L.2210669(ILL, May 26, 2021)

(5)

JURISDICTION

The date on which the highest state court decided my case was May 26,
2021. A copy of that decision appears at Appendix "A". No petition
for rehearing was timely filed in my case. No extension of time
to file for a writ of certiorari was filed on petitioners behalf.
The jurisdiction of this court is invoked under 28 U.S.C. §1257(A).

(6)

CONSTITUTIONAL PROVISIONS AND STATUTES

Petitioners, Fourth Amendment to The United States Constitution,
The right of the people to be secure in their houses, against
unreasonable searches and seizures, was violated by The Appellate
Court of Illinois when denying petitioner relief, petitioner was
contesting the use of Investagative Alerts by Chicago Police
Department, which is a deliberative process to circumvent obtaining
a warrant from a Neutral Magistrate Judge, petitioner raises a
purely legal question, whether an Investagative Alert supported
by probable cause may serve as the basis for an arrest, if the
police do not obtain a warrant.

(7)

STATEMENT OF THE CASE
Sergio Bahena was convicted of attept first degree murder, aggrivated
battery, and aggrivated discharge of a firearm after a bench trial was conducted
before Judge Erica Reddick beginning on September 11, 2017. This trial was in
connection with the non-fatal shooting of a man named Ruben Saldivar that
occurred on March 9, 2013 near the location of 4884 S. Archer Avenue in Chicago,
Illinois. (The relevant facts are discussed in Mr.Bahena's opening brief. See.
Appellant's Brief, pp. 4-20. In this supplemental filinf, Mr.Bahena, through
counsel, is raising the additional issue of whether the trial court erred in den7,
ying his motion to quash arrest and suppress evidence. The relevant facts for this
issue are recounted below.)
On July 5, 2015, counsel for Mr.Bahena filed a written motion to quash arrest
and suppress evidence. C 113-115. In that filing, counsel argued, inter alia,
that Mr.Bahena's November 5, 2013 arrest was effected in violation of his const­
itutional rights under both the Illinois Constitution and the Constitution to
the United States. Id. As a result, counsel requested that his arrest be quashed
and that any and all fruits of his arrest-including any post-arrest statement-be
suppressed in this criminal proceeding. Id.
An evidentiary hearing was held for this motion on July 12, 2016. R 57.
At that hearing, the defense called Mr.Bahena to the stand. R 66. After testi­
fying to his age and background, he indicated that on November 5, 2013, at appr­
oximately 5:00p.m., he was sleeping and awoken by his girlfriend. R 67.
She informed him that some officers were.present and wished to speak with him.
Id. Mr.Bahena immediately got dressed and went downstairs to talk to the officers.
Id. As Mr.Bahena stepped outside, he recognized Detective Perez, an officer who
previously investigated his cousin's murder. R 68.
Mr.Bahena refused to allow the officer to come inside because children were pres-

(8)

ent watching television. R. 70.
Detective Perez, and his fellow officers, then handcuffed Mr.Bahena and placed
him into custody. R 70. Mr.Bahena was never informed that the officers had an . __v.
arrest,warrant, and at the time, he was not violating any law. R 71.
On cross-examination, the state elicited that Mr.Bahena spoke with officer Perez
at his home on two or three in or around August 2013, and that he would recognize
officer Perez. R 72-78.
The defense then rested, and the hearing was continued until August 2, 2016
at which time the state called Detective Terry Teahen. R 79-80; 88-89.
Detective Teahen testified that he was assigned to investigate the shooting of
Ruben Saldivar on March 9, 2013, which took plac at approximately 10:00 p.m. in the vicinity of 4884 S Archer Avenue in Chicago, Illinois. R 90. Detective
Teahen stated that he recovered a surveillance video from a liquor store at
the location, which depicted a Hispanic male walk up to a conversionovan parked
in front of the store. Id. The video then depicted the individual walk to the
passenger window and shoot into the van before fleeing southbound on Archer. R 91.
Detective Teahen took stills from the video, created an information or lookout
bulletin, and posted it in various police stations. R 91-93. On October 30, 2013
Detective Teahen was contacted and learned that Officer Perez recognized Mr.Bahena
as the offender. R 94. On November 4,.2013, Detective Teahen showed the victim,
Mr.Saldivar, a photo array that included Mr.Bahena. R 95. Mr.Saldivar identified
Mr.Bahena in the photo array as the individual who shot him. R 96. Detective
Teahen then issued an investigative alert with probable cause to arrest Mr.Bahena.
R 97. He went on to describe the process of creating the alert and the manner in
which it was disseminated amongst the Chicago Police Department. Id.
On November 5, 2013, Detective Teahen learned that Mr.Bahena was placed under
arrest by Officer Perez. R 97-98. Detective Teahen identified Mr.bahena in court
as the individual who was arrested on November 5, 2013 at appoximately 5:00 p.m.

at the address of 5137 S. Kostner Avenue. R 98. On cross-examination, Detective
Teahen was questioned regarding the information bulletin (R 99-101). The photo
array shown to Mr.Saldivar (R 101-102), and his contact with Officer Perez. .1 i
R 103. Importantly, counsel also elicited that Detective Teahea (prepared an
investigative alert, submitting to his Chicago Police Department Supervisor,
and did not obtain an arrest warrant or a search warrant. R 102-103.
In argument, defense counsel began by referencing the United States Const­
itution and the Illinois Constitution, as well as the fact that no arrest-warrant
orrsearchvwarrant was obtained. R 106. He then went on to critique the constitu­
tionality of the process of obtaining an investigative.alert, including the
fact that it was submitted to a supervisor, as opposed to a judicial officer, a
and no warrant was obtained. R 107.
The bench trial for this matter commenced on..September 11, 2017. R 160.
Relevant to the issue raised in this (petition for Writ of Certiorari) at trial
the statfe introduced a physical line up viewed by Mr.Saldivar, which included
Mr.Bahena. See. R 328-347; 446-447; 470-492; 509-520. Those post arrest stater
ments include a handwritten statement taken in the presence of assistant States
Attorney. See R 515-520.
"After closing arguments concluded, the trial court found Mr.Bahena guilty
of all counts, with the exception of counts five and six of the indictment.
R 733-735; 678-713.
On January 1, 2018 the trial court denied Mr.Bahena's post^trial motions
and sentenced him to 31 years in the Illinois Department of Corrections. R 768785.
Mr.Bahena filed a timely notice of appeal in the Appellate Court of Illinois.
Throughjcounsel Mr.Bahena, filed two appellate briefs Case No. 1-18-0197,
first brief was filed on September 27, 2018 within contesting the trial courts
denial of a motion filed to suppress the photo array and physical line up. ;

(!o)

A second supplemental brief was filed through counsel on August 19, 2019
within contesting the trial courts denial of a^motion filed to quash arrest
and suppress the fruits thereof. The relevant facts for that motion are recounted
in this petition for Writ of Certiorari. In the supplemental brief Mr.Bahena.,
raises, a purely legal question regarding his arrest, namely, whether an invest­
igative alert that is supported by probable cause may serve a basis for an arrest,
if the police do not obtain a warrant. The decision was reached by appellate
court on March 31, 2020 denying Mr.Bahena appellate briefs.-. No petition for
rehearing was filed on Mr.Bahena's behalf. Mr.Bahena pro-se moved to file a
motion for an extension of time to file a Petition for Leave to Appeal to the
Supreme Court of Illinois, motion was acknowledged April 30, 2020. Mr Bahena
pro-se filed Petition to Leave to Appeal on June 5, 2020, Case No. }126062
Petition was denied on May 26, 2021. No petition for rehearing was filed on
Mr.Bahena*s behalf.

(H)

REASONS FOR GRANTING THE WRIT

Divisions within the Appellate First District of Illinois are in conflict
between the use of "Investigative Alerts" by Chicago Police Department. The fourth
division which filed there opinion on petitioners appellate brief explicitly rejec­
ted the findings in People v. Bass, 2019 II App. (lst)160640. " Wh decline to Follow the
reasoning or jxreedant of Bass and find that Bass was incorrectly dpcirki ". See petitioners
Appendix(A)opinion

j And it would follow it's more recent ruling in

People v. Braswell, 2019 IL App(lst)172810. Defendant Hyland was the first to
address the use of investigative alerts, that appellate court found that arrests
based on investigative alert was Unconstitutional. See. People v. Hyland, 2012
II App(lst)110966, 981 N.E. 2d 414, 367 ILL. Dec.89. In Bass, a divided panel of
the appellate court concluded that an arrest is unconstitutional under the Illinois
Constitution when it is based on an investigative alert, even where the investigati­
ve alert is supported by probable cause. Ill. Const.Art 1, §6. See People v. Bass,
2019 Ill App(lst)160640-

]•' However, in Braswell this court found that Brass

incorrectly decided and declined to follow it. The Braswell court observed that
Brass "created the scmshat paradoxical situation where police may arrest an individual without a
warrant and without an investigative alert if thy have probable cause to do so, but that sare arrest
becares unconstitutional if police issue an investigative alert based cn the sane facts that gave rise
to the probable cause." :Braswell, 2019 IL App(lst)172810

J. Braswell court thus

adopted the reasoning outlined by (justice Mason) in her partial dissent in Bass.
See Bass, 2019 IL App(1st)160640|

Jj. Other panels of this court have followed

the reasoning of Braswell and Justice Mason's dissent. Our Supreme Court Of Illinois
recently handed dow/n it's decision in People v. Bass, 2021 IL 125434, 144 N.E. 3d.
542, aff'd in part, vacated in part, having disposed of the case it declined to
express ary cpdnicn limited locksty> analysis, its: application to warrants or investigative alerts,
or the constitutionality of investigative alerts. Those portions of the appellate opinion dealirg

(\l)

with these issues are vacated." Bass, 2021 IL 125434, 91912931. However Justice Neville
concurring in part and dissenting in part, disagree with the majority's use of
constitutional avoidance to vacate the appellate court's holding that Bass arrest
was unconstitutional under the warrant clause of the Illinois Constitution, Ill.
Const. 1970, Art I, §6, See Justice Neville dissent, in-iFeoplei V. Bass,',' 20211TL.,

.....

125434 J
Without contesting the validity of the decisions in Braswell or Bass, petit­
ioner asserts that the investigative alert used in the instant case violated his
constitutional rights under the Ill.Const.Art I, §6 and the United States Constit­
ution 4th Amendment petitioner raise a purely legal question on his appellate brief
regarding his arrest, namely, whether an investigative alert that is supported by
probable cause may serve as the basis for an arrest-if the police do not obtain a
warrant and that Sgt.Perez's "Authority" to arrest petitioner "derived’ entirely
from the investigative.'alert" by. itself, was sufficient.
Warrantless arrest of Petitioner at his home on the grounds of an "Investigative
Alert" violated the Fourth Amendment of the United States Constitution, "The ;
right of the people to be secure in their...home..Shall not be violated and to
be arrested in the home involves not only the invasion of the sanctitiy of the
home which is to substantial an invasion to allow without a warrant in the absence
of exigent circumstances even when it.is accomplished under Statutory Authority".
Peyton v. New York 445 U.S. 573, 100 S.Ct 1371, 63 L.Ed. 2d. 639(1980).'
On November 5^..i2013 at approximately 5:00 p.m. Sgt.Perez and his partner, with
the intent to arrest petitioner knocked on petitioner's home door and once petit­
ioner revealed himself at the front door of his home Sgt.Perez commanded the
petitioner step out dnto.cthe‘porch of his home then arrest petitioner, likewise
petitioner's arrest was set in motion while in his home. See United States v.
Santana U.S. 38, 96 S.Ct 2406, 49 L.Ed. 2d 300(1976) where our Supreme Court
held that Santana's arrest had been set in:motion by officers shouting "police

(is)

before Santana" retreated into her home, to negate an lawful arrest in a public
place. Petitioner contends that at the very core of the Fourth Amendment stands
the right of a man to retreat into his home and there be free from unreasonable
goverment intentions. Silverman V. United States 365 U-S. 505,511, 81 S.Ct 679
683, 5 L.Ed. 2D 734. This right was violated by Sgt.Perez when after commanding
that petitioner step out onto the porch instantly arresting petitioner without
a warrant and absent exigent circumstances but instead armed only with an
"Investigative Alert".
Petitioners circumstances leading up to the arrest are distinguishable from
both Bass or Braswell, Bass was in a "Public Place" when the investigative alert
was executed while defendant was committing and/or committed a separate crime.
Braswell defendant was already in "Police custody" on a separate crime, when he
was arrested for the instant offense based on a. investigative alert. Furthermore
recognizing, "Efcasuell did not contest the propiety of the investigative alert on his pro-trial
motion to supross car his opanipg trief before the appellate court, defoliant raised the issue
regarding the constitutionality of the alert in his reply trief after the courts opinion in Bass,
2019, IL App(lst)16064G.V See People v. Braswell, 2019 IL App(lst)172810,
By contrast in the case at bar petitioner was at home, when officers executed
the alert, petitioner having a greater Constitutional Protection under the
Fourth Amendment of the United States Constitution and ILL.Const.1970. Art I.
§6. Wjich were violated by the Chicago Police Department's use of an "Investi­
gative Alert" at his home to circumvent the warrant requirement being that the
Fourth Amendment has drawn a firm line at the entrance to the house, absent
exigent Circumstances. That threshold may not reasonably be crossed without a
warrant, Payton v. New York, 445 U.S. 573, 100 S.Ct. 1371, 63 L.Ed. 2d. 639,
(1980). Being that petitioner having been in his home was arrested absent warr­
ant and/or exigent circumstances but based on a process that allowed C.P.D. to
side-step a Judge and is a deliberative process and not a response to actions

unfolding in real time. Detectives had ample time to seek a warrant from a
"Neutral Magistrate Judge"- See Appendix "C"

05)

\

V

CONCLUSION

" "Wherefore, Petitioner > Sergio Bahena, states the reasons herein j
respectfully requests that this Court vacate his conviction, order
a new trial > and grant any and all other relief deemed appropriate.

Executed on: Tokj

\ 2021

Respectfully Submitted,

A

EJ

Petitioner, pro se

(16)

